HHS/OIG - Audit, "Audit of Californias Medicaid Inpatient Disproportionate
Share Hospital Payments for University of California, San Diego Medical Center,
San Diego, California, State Fiscal Year 1998," (A-09-01-00085)
Department
of Health and Human Services
"Audit of Californias Medicaid Inpatient Disproportionate Share Hospital
Payments for University of California, San Diego Medical Center, San Diego,
California, State Fiscal Year 1998," (A-09-01-00085)
September 24, 2002
Complete
Text of Report is available in PDF format (5.71 MB). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that the California Department of Health Services
made Medicaid disproportionate share hospital (DSH) payments to the University
of California, San Diego Medical Center (UCSDMC) that exceeded by $8.0 million
(federal share) the hospital specific limit for DSH payments as mandated by
the Omnibus Budget Reconciliation Act of 1993. This problem occurred primarily
because the state:  (1) used projected amounts instead of actual expenses
and payments, (2) did not limit total operating expenses to amounts that would
be allowable under Medicare cost principles, (3) included bad debts as additional
operating expenses, and (4) double counted some charges and included charges
for services provided to inmates. We recommended financial adjustments and procedural
corrections. The state generally disagreed with our findings and recommendations.